                                     SOCIAL SECURITY
MEMORANDUM

Date:   December 30, 2011                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The
           Social Security Administration’s Reporting of High-dollar Overpayments Under
        Executive Order 13520 in Fiscal Year 2011 (A-15-11-01140)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to review the Accountable Official’s Quarterly High-Dollar Overpayment
        Reports for the quarters ended December 2010 and March, June, and September 2011
        and determine whether the (1) method used for identifying high-dollar overpayments
        detected overpayments meeting the Executive Order criteria and (2) Agency complied
        with all requirements of the Executive Order.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

        Attachment
    QUICK RESPONSE
     EVALUATION
The Social Security Administration’s Reporting
     of High-dollar Overpayments Under
  Executive Order 13520 in Fiscal Year 2011

               A-15-11-01140




               December 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                         Background
OBJECTIVES
Our objectives were to review the Accountable Official’s Quarterly High-Dollar
Overpayment Reports to the Office of the Inspector General (OIG), as required by
Executive Order 13520, Reducing Improper Payments, for the quarters ended
December 2010 and March, June, and September 2011 and determine whether the
(1) method used for identifying high-dollar overpayments detected overpayments
meeting the Executive Order criteria and (2) Agency complied with all requirements of
the Executive Order.

BACKGROUND
When the Government makes payments to individuals and businesses, such as
program beneficiaries, grantees, or contractors, or on behalf of program beneficiaries, it
must make every effort to confirm that the right recipient is receiving the correct
payment. On November 20, 2009, the President issued Executive Order 13520, 1 “. . . to
reduce improper payments by intensifying efforts to eliminate payment error, waste,
fraud, and abuse in the major programs administered by the Federal Government, while
continuing to ensure that Federal programs serve and provide access to their intended
beneficiaries.” 2

As part of the Executive Order, each agency head is required to submit to the agency’s
OIG and the Council of Inspectors General on Integrity and Efficiency (CIGIE) a
quarterly report on high-dollar overpayments identified by the agency, subject to Federal
privacy policies and to the extent permitted by law. The report shall describe any
actions the agency has taken or plans to take to recover improper payments, as well as
any actions the agency intends to take to prevent improper payments from occurring in
the future. 3




1
    74 Fed. Reg. 62201 (published November 25, 2009).
2
    Id. at Section 1.
3
    74 Fed. Reg. 62201, 62203, Section 3(f) (published November 25, 2009).


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)   1
According to Office of Management and Budget (OMB) guidance, 4 a high-dollar
overpayment exceeds 50 percent of the correct amount of the intended payment where

1. the total payment to an individual exceeds $5,000 as a single payment or in
   cumulative payments for the quarter or
2. the payment to an entity 5 exceeds $25,000 as a single payment or in cumulative
   payments for the quarter.

Examples of overpayments that would need to be included in an agency’s quarterly
report on high-dollar overpayments include the following.

1. A single payment or cumulative payments to the wrong individual or entity that
   exceeds the respective $5,000 or $25,000 limit.
2. A single payment or cumulative payments to the correct individual of $6,500 when
   the intended amount was $3,000 (the payment is more than 50-percent higher than
   the intended amount, and the total payment is above $5,000, thus meeting both
   criteria to qualify as a high-dollar improper payment to an individual).
3. Cumulative amounts of overpayments to an entity that exceed the 50-percent and
   $25,000 threshold during a quarter (for example, even if an agency has an ongoing
   relationship with an entity and typically corrects overpayments or underpayments in
   its next payment cycle, it would need to report these improper payments if they are
   above the 50 percent and $25,000 amount for the quarter). 6

STEWARDSHIP REVIEWS

The Office of Quality Performance (OQP) performs stewardship reviews to examine the
non-medical elements in the Old-Age, Survivors and Disability Insurance (OASDI) and
Supplemental Security Income (SSI) programs related to the payment accuracy and
entitlement/eligibility of benefit payments made during a sample period. Each month,
OQP selects a statistical national sample of OASDI beneficiaries who received a
payment(s) during the review period. For each sample selected, the beneficiary or
representative payee is interviewed; collateral contacts are made, as needed; and all
non-medical factors of entitlement are redeveloped as of the current sample month.
The findings are input into a national database for analysis and report preparation.


4
 OMB Circular A-123, Management’s Responsibility for Internal Control, Requirements for Implementing
Executive Order 13520: Reducing Improper Payments (Appendix C, Part III), March 22, 2010 p.18.
5
  An entity is a non-individual that owes an outstanding improper payment. The term entity excludes an
individual acting in either a personal or commercial capacity (that is, a sole proprietor) and Federal, state,
and local government agencies. OMB Circular A-123, Management’s Responsibility for Internal Control,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments (Appendix C,
Part III), March 22, 2010 p. 22.
6
 OMB Circular A-123, Management’s Responsibility for Internal Control, Requirements for Implementing
Executive Order 13520: Reducing Improper Payments (Appendix C, Part III), March 22, 2010 p.18.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)                        2
IMPROPER PAYMENTS

Each year, the Social Security Administration (SSA) reports payment accuracy rates for
the OASDI and SSI programs based on its stewardship reviews. The Agency uses
these reviews to report on the accuracy of benefit payments. Each year, SSA reports
over- and underpayments from its stewardship reviews of non-medical aspects of the
Old-Age and Survivors Insurance (OASI), Disability Insurance (DI), and SSI programs.
In accordance with OMB’s guidelines implementing the provisions of the Improper
Payments Information Act of 2002 (IPIA), 7 SSA reports as improper those payments
that result from (1) its mistake in computing the payment, (2) its failure to obtain or act
on available information affecting the payment, (3) a beneficiary’s failure to report an
event, or (4) a beneficiary’s incorrect report. 8

SSA issued its four high-dollar reports to the OIG on January 26, April 15, July 28, and
October 26, 2011 for the quarters ended December 31, 2010 and March 31, June 30,
and September 30, 2011, respectively. Based on its sample of annual payment
accuracy reviews from a representative sample of OASDI and SSI benefit payment
cases, the Agency did not report any instances that met the definition of a high-dollar
overpayment for the Fiscal Year (FY) 2011 period October 1, 2010 through
September 30, 2011.




7
    Pub. L. No. 107-300, 116 Stat. 2350 (codified as amended in 31 U.S.C. § 3321 note).
8
    SSA, FY 2011 Performance and Accountability Report, November 2011, p. 189.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)      3
                                                       Results of Review
We reviewed reports on quarterly high-dollar overpayments for the quarters ended
December 31, 2010 and March 31, June 30, and September 30, 2011 to ensure the
Agency implemented a methodology for identifying high-dollar overpayments that
detected overpayments and addressed all the Executive Order’s requirements. Overall,
we determined that the Agency addressed all requirements of the Executive Order
based on the methodology used. SSA’s methodology for identifying high-dollar
overpayments did not detect overpayments that met the Executive Order’s criteria.

HIGH-DOLLAR OVERPAYMENTS NOT IDENTIFIED USING THE AGENCY’S
METHODOLOGY

We reviewed the methodology the Agency used to identify high-dollar overpayments to
determine whether the method detected overpayments that met the Executive Order’s
criteria. We gained an understanding of how the Agency used the results from the
stewardship reviews in determining whether any cases met the criteria for a high-dollar
overpayment. We determined that although the stewardship reviews provided adequate
results for determining the accuracy of payments, SSA’s reviews did not detect high-
dollar overpayments that were required to be reported under the Executive Order.

Stewardship Sample Period Usually Included Only 1 Month of Payment Data

SSA received clarifications from OMB on April 27 and June 2, 2010 for reporting high-
dollar improper overpayments. OMB stated, “. . . that SSA should review improper
overpayments9 identified during stewardship reviews (and any other relevant
processes), and, as needed, report quarterly that either no payments were identified, or
any payments that are identified.” OMB acknowledged that “SSA stated that it is highly
unlikely that the agency would identify improper overpayments to individuals, including
via its stewardship reviews in SSI that would meet the criteria in the Executive Order’s
implementing guidance . . . .” During, or shortly after, each FY, OQP conducted
stewardship reviews of the OASDI and SSI payments issued in that FY.

OQP bases its stewardship reviews on a monthly sample selection of all OASDI
beneficiaries who receive a payment(s) during the review period and were in current
pay status during the sample period. The SSI sample is drawn from all cases of SSI
recipients who received a payment during the FY regardless of their current pay status.
For example, in SSI, if the month sampled was August, the sample period would have
been July 2 through August 1. The OASDI sample reviews all payments on a Social
Security number made in a calendar month. For the FY 2010 stewardship reviews,
approximately 88 OASI, 46 DI, and 360 SSI cases were reviewed each month.


9
 SSA distinguishes an improper payment from an overpayment based on whether it meets the definition
agreed on with OMB. If a payment is considered avoidable, it is characterized as improper. See
Appendix C for the definition of improper.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)                 4
Once a case is sampled, the Electronic Quality Assurance (eQA) system calculates the
recurring and retroactive payments 10 for the sample period. This system assists OQP in
overseeing the completeness and accuracy of OASDI and SSI claims. The sample
dollars can be adjusted during the review if the amounts are incorrect. The data
included in the system reflect the payments that were issued only in the sample period
and therefore may not reflect the total benefit payments and/or overpayments that
occurred in a quarter for that case. For example, in the SSI review, if a case was
sampled in August 2011, any recurring or retroactive payments that were made on the
sampled case from July 2 through August 1 were calculated by eQA and included in the
system. The sample dollars would be verified during the review and adjusted, if
needed. The system would not include any payments that were made in the remainder
of that quarter (that is, July 1 and August 2 through September 30). Therefore, the data
reviewed for reporting on quarterly high-dollar overpayments usually do not include the
total benefit payments and/or overpayments to a beneficiary or recipient that occurred in
the entire quarter. By using data that do not include payments actually made for all
3 months in a quarter, the Agency may not identify high-dollar overpayments.

Stewardship Review Results Include Payment Data from Previous Quarters

For the quarterly high-dollar reports issued in the quarters ended December 31, 2010
and March 31, June 30, and September 30, 2011, SSA used the results documented in
the eQA system for the sample cases cleared 11 during the reporting period. For
example, if a case was sampled in April 2011 but the review was not completed until
September 2011, the payment data for the sample period (March 2 through April 1)
would be included in the review for the quarter ended September 2011. According to
OQP, it is not possible to provide findings for cases sampled in each quarter because
the field sites have until the end of January to clear cases sampled for the previous
October through September, and the consistency review of these cases is not
completed until the end of February. Further editing and review of anomalies continues
throughout most of March. Therefore, in some cases, OQP may have to wait over
1 year before the case is fully completed.

We reviewed the supporting documentation OQP provided for the quarters ended
December 31, 2010 and March 31, June 30, and September 30, 2011 to determine the
number of cases that were included in the analysis and sampled and cleared in
the respective quarters. Based on this support, in total for all FY 2011 quarters, only
5 percent of OASDI and 4 percent of SSI cases included in the review were sampled
and cleared during the same FY 2011 quarter. Because stewardship cases can take
several months to clear, the data reviewed for the high-dollar overpayment reports
under the Executive Order will typically include payments that relate to prior quarters.
10
  Recurring payments are regular monthly payments and a retroactive payment is a payment issued
during the sample period which is for a month(s) before the sample month.
11
   Per OQP, “cleared” is the term used to define the point that the OQP field site has relinquished
jurisdiction of a sampled case to Central Office because all actions (for example, documentation,
development, and internal reviews) are complete but it is not the date that OQP has finished its review of
the case.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)                        5
Therefore, since over 95 percent of the data reviewed in the FY 2011 quarters related to
a previous period, only a small percentage of payments issued in the FY 2011 quarters
was included in the analysis for the high-dollar report. SSA stated, “. . . the stewardship
review was never intended to capture quarterly payment data”; therefore, as was
previously stated, it is highly unlikely that the Agency would identify improper
overpayments that would meet the criteria in the Executive Order’s implementing
guidance.

OIG IDENTIFIED POTENTIAL HIGH-DOLLAR OVERPAYMENTS USING AN
ALTERNATIVE METHOD

We designed a methodology for identifying high-dollar overpayments by using data from
one segment of the Master Beneficiary Record (MBR); Recovery of Overpayments,
Accounting and Reporting (ROAR) System; and Supplemental Security Record (SSR).
We focused on OASDI beneficiaries and SSI recipients who received single or
cumulative payments in excess of $5,000 for each FY 2011 quarter from October 2010
through September 2011. We matched the populations against the overpayment data
on the ROAR and SSR to identify beneficiaries and recipients who may have met the
payment criteria in the Executive Order and had an overpayment established on their
record.

We further analyzed the populations to identify individual cases that met the criteria for
reporting as a high-dollar overpayment according to the Executive Order. Refer to
Appendix B for the scope and methodology used to analyze the populations. Our
analysis identified seven OASDI and zero SSI cases that potentially met the criteria of
the Executive Order. For each of these cases, we determined the beneficiary or
recipient obtained payments in excess of $5,000 in one of the quarters from
October 2010 through September 2011. During that quarter, each beneficiary or
recipient also had an overpayment in excess of 50 percent of the correct amount of the
intended payment for that quarter.

At our request, SSA reviewed the seven cases and confirmed that six OASDI cases
may have met the criteria to potentially be reported as a high-dollar overpayment under
the Executive Order. In accordance with OMB’s guidelines implementing the provisions
of IPIA, 12 OMB decided that SSA should only include avoidable overpayments in its
improper payment estimate because these payments could be reduced through
changes in administrative actions. Unavoidable overpayments that result from legal or
program requirements are not to be included in SSA’s improper payment estimate.
(See Appendix C for the definitions of erroneous payments.) SSA stated that it could
not definitely determine these payments were improper unless it conducted a full
stewardship review for these cases that verifies all non-medical factors of eligibility.
SSA also reiterated that OMB fully supports the methodology it uses each quarter to
identify high-dollar improper overpayments. SSA recognizes that this method will not
capture all high-dollar overpayments; however, when it identifies a case, the case is
unlikely to provide further insight into the causes of OASDI and SSI improper payments.
12
     Pub. L. No. 107-300, 116 Stat. 2350 (codified as amended in 31 U.S.C. § 3321 note).


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)        6
REQUIREMENTS OF EXECUTIVE ORDER ADDRESSED BY THE AGENCY

In March 2010, OMB issued guidance 13 for implementing the requirements of the
Executive Order. We reviewed the Accountable Official’s Quarterly High-Dollar
Overpayment Reports for the quarters ended December 2010 and March, June, and
September 2011 to ensure the Agency addressed all requirements of the Executive
Order.

Required Information Included in Reports

According to OMB’s guidance, all agencies with programs susceptible to significant
overpayments under the IPIA are required to submit reports on high-dollar
overpayments. The report shall

1. list all high-dollar overpayments identified by the agency during the quarter;
2. describe whether each high-dollar overpayment was made to an entity or individual,
   and the city/county and State where that entity or individual was located;
3. list the program responsible for each high-dollar overpayment error;
4. describe any actions the agency has taken or plans to take to recover high-dollar
   overpayments (the report should address overall actions and strategies and not
   focus on individual payments); and
5. describe any actions the agency will take to prevent overpayments from occurring in
   the future (the report should address overall actions and strategies, and not focus on
   individual payments).

Agencies shall complete, submit, and publicize these reports at least once a quarter.
Each quarterly report shall be completed, submitted, and published by the last day of
each quarter. OMB clarified this due date in June 2010, stating, “. . .future high-dollar
quarterly reports can be submitted up to 30 days after the end of the quarter (for
example, for the quarter ending June 30th agencies should submit this report to their
OIG and OMB by July 30th, by October 30th for the quarter ending September 30th,
etc.).”

The guidance also states that if an agency has no high-dollar overpayments during the
reporting period, it need only send a letter informing the Controller of OMB that the
agency had no high-dollar overpayment errors.

Based on the methodology SSA used for the quarters ended December 31, 2010 and
March 31, June 30, and September 30, 2011, SSA did not report any high-dollar
overpayments that met the criteria of the Executive Order. The Agency submitted
emails to the Controller of OMB on January 26, April 15, July 28, and October 26, 2011,
respectively, stating that based on the annual payment accuracy reviews from a

13
  OMB Circular A-123, Management’s Responsibility for Internal Control, Requirements for Implementing
Executive Order 13520: Reducing Improper Payments (Appendix C, Part III), March 22, 2010.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)               7
representative sample of OASDI and SSI cases, no cases met the definition of a high-
dollar overpayment. All four of these reports were submitted to the OIG and OMB
timely.

Website Submission

According to the OMB guidance, within 15 days of submitting the quarterly high-dollar
report to the OIG, agencies shall make these reports available to the public by, at a
minimum, submitting them to the improper payments Website. 14 If the agency has no
high-dollar overpayments for that period, the agency shall submit a “no report” status to
the improper payments Website. On January 26, April 15, July 28, and October 26,
2011, respectively, the Agency submitted an email to OMB stating that no improper
payments were identified during each quarter. Although the Agency is required to
submit these reports to the improper payment Website, OMB has acknowledged that
the Website does not yet have the functionality that would allow agencies to post the
high-dollar reports to the Website but encourages Agencies to post reports to their own
sites. Therefore, to ensure the public can view these reports, SSA updated its
Website 15 with information relating to high-dollar overpayments for the quarters ended
December 2010 and March and June 2011 within 15 days of submitting the report to the
OIG. However, SSA did not post the September 2011 quarterly report until
November 18, 2011.

OMB Guidance

In the March 2010 OMB-issued guidance, that states an agency should report high-
dollar overpayments where the total payment to an individual exceeds $5,000 as a
single payment or in cumulative payments for the quarter. 16 SSA would report high-
dollar improper overpayments when an overpayment was recorded on a beneficiary's
record during the same quarter the beneficiary's payment(s) exceeded $5,000. For
example, if during SSA's stewardship reviews, it found an improper overpayment on a
beneficiary's record in August 2011, and the beneficiary's payment(s) exceeded
$5,000 for the quarter July 1 through September 30, 2011, then they would report this
improper overpayment in the September 2011 quarterly high-dollar overpayment report.

OMB guidance further states that the high-dollar overpayment report shall, ". . . list all
high-dollar overpayments identified by the agency during the quarter." 17 We have
interpreted this guidance to mean that agencies are to report all high-dollar
overpayments identified during a reporting quarter, regardless of when the payments
were made. For example, in the FY 2011 quarters, we identified 40 overpayments that
were recorded on the beneficiary's record in FY 2011. These overpayments related to
14
     http://www.paymentaccuracy.gov.
15
     http://www.ssa.gov/improperpayments.
16
     OMB Circular A-123, Part III (C) (3) (e).
17
     OMB Circular A-123, Part III (C) (3) (g).


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)        8
benefit payments from 2010. However, the overpayments were not recorded on the
beneficiary's records until FY 2011. In each case, the beneficiary's payments exceeded
$5,000 as a single payment or in cumulative payments for at least one quarter in
FY 2010, and the overpayment exceeded 50 percent of the correct amount of the
intended payment in 2010, further meeting the criteria of a high-dollar overpayment.
Based on our interpretation of the guidance, these beneficiary's overpayments could be
reported in the FY 2011 quarterly reports because the Agency identified them during a
FY 2011 quarter. Based on SSA’s stewardship reviews, these beneficiary's
overpayments should not be reported because the overpayments were not made in the
quarters SSA was reporting on for FY 2011. We believe the OMB guidance needs to be
further clarified.




SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)   9
                                                                         Conclusion
Overall, our review determined that although the Agency addressed all requirements of
Executive Order 13520 based on the results obtained using the stewardship sample
cases, the methodology for identifying high-dollar overpayments did not detect existing
overpayments that met the criteria of the Executive Order. While the data obtained
through the stewardship reviews provide adequate results for payment accuracy, the
reviews did not detect high-dollar overpayments required to be reported under the
Executive Order. The payment information used for reviewing high-dollar overpayments
for the quarters ended December 31, 2010 and March 31, June 30, and September 30,
2011 only included payments made during a 1-month period, which in most cases was
outside the quarter reported on. By using data that do not include payments actually
made for all 3 months in a quarter, the Agency may not identify high-dollar
overpayments. Additionally, because stewardship cases can take several months to be
cleared, the data reviewed for the high-dollar reports will typically include mostly
payments that relate to prior quarters.

As previously stated, OMB stated, “. . . that SSA should review improper
overpayments18 identified during stewardship reviews (and any other relevant
processes), and as needed, report quarterly that either no payments were identified, or
any payments that are identified.” Our review determined that, although the Agency
reported no high-dollar overpayments during the four quarters under review, high-dollar
overpayments may have been identified if SSA had employed a methodology focused
on analyzing data extracts from the MBR, ROAR, and SSR. Our process used data
from overpayments already identified by the Agency associated with the reporting
quarter. The Executive Order requires that agency heads submit the quarterly reports
on high-dollar overpayments to boost transparency among agencies and the public. 19
The Agency did not take additional steps to identify and report on the high-dollar
overpayments using other information.




18
  SSA distinguishes an improper payment from an overpayment based on whether it meets the definition
agreed on with OMB. If a payment is considered avoidable, it is characterized as improper. See
Appendix C for the definition of improper.
19
  74 Fed. Reg. 62201, 62203, Section 3(f) (published November 25, 2009);OMB Memorandum M-10-13,
Issuance of Part III to OMB Circular A-123, Appendix C, March 22, 2010.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)             10
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Defining Erroneous Payments
APPENDIX D – OIG Contacts and Staff Acknowledgments




SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)
                                                                         Appendix A

Acronyms
    APP                Annual Performance Plan

    CIGIE              Council of Inspectors General on Integrity and Efficiency

    DI                 Disability Insurance

    eQA                Electronic Quality Assurance

    Fed. Reg.          Federal Register

    FY                 Fiscal Year

    IPIA               Improper Payments Information Act of 2002

    MBR                Master Beneficiary Record

    OASDI              Old-Age, Survivors and Disability Insurance

    OASI               Old-Age and Survivors Insurance

    OIG                Office of the Inspector General

    OMB                Office of Management and Budget

    OQP                Office of Quality Performance

    Pub. L. No.        Public Law Number

    ROAR               Recovery of Overpayments, Accounting and Reporting

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    SSN                Social Security Number

    SSR                Supplemental Security Record

    U.S.C.             United States Code




SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)
                                                                         Appendix B

Scope and Methodology
Our objectives were to review the Accountable Official’s Quarterly High-Dollar
Overpayment Reports to the Office of the Inspector General (OIG), as required by
Executive Order 13520, Reducing Improper Payments, for the quarters ended
December 31, 2010 and March 31, June 30, and September 30, 2011 and determine
whether the (1) method used to identify high-dollar overpayments detected
overpayments meeting the Executive Order criteria and (2) Agency complied with all
requirements of the Executive Order. To accomplish our objectives, we:

• Reviewed the Accountable Official’s Quarterly High-Dollar Overpayment Reports
  under Executive Order 13520, Reducing Improper Payments, for the quarters ended
  December 2010 and March, June, and September 2011.
• Reviewed applicable Federal laws.
• Reviewed applicable Office of Management and Budget guidance.
• Reviewed the Fiscal Year (FY) 2009 and 2010 Stewardship Review Reports for the
  Old-Age, Survivors and Disability Insurance (OASDI) programs.
• Reviewed the FY 2009 and 2010 Stewardship Review Reports for the Supplemental
  Security Income (SSI) program.
• Requested data from the Office of Quality Performance to support the cases
  reviewed for the quarterly high-dollar overpayment reports.
• Obtained a data extract for one segment 1 of the Master Beneficiary Record (MBR);
  Recovery of Overpayments, Accounting and Reporting (ROAR) system; and
  Supplemental Security Record (SSR) for the respective quarters ended
  December 31, 2010 and March 31, June 30, and September 30, 2011, where the
  Agency had recorded an overpayment on the beneficiary’s record during the
  respective quarter.

       o For the MBR and ROAR extract, we identified 908 unique Social Security
         number (SSN) accounts paid in excess of $5,000 during a quarter and also had
         an overpayment established from October 1, 2010 through October 11, 2011
         with a Type of Event Code of “01 – Incorrect Month of Entitlement,” “02 –
         Incorrect Computation,” “03 – Mult Ent.,” “05 – Dup Pay Crit Case,” “09 – Dup
         Pay DIB-RIB Pay,” “17 – Ann Ret Test PD,” and “68 – Windfall Offset OP.”
         Based on prior knowledge, the Agency considers these event types improper
         and therefore would be reportable for the quarterly high-dollar reports.




1
    One segment represents 5 percent of the population.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)   B-1
    o For the SSR extract, we identified 45 unique SSN accounts paid in excess of
      $5,000 during a quarter and had an overpayment established from October
      2010 through October 11, 2011.
• Analyzed each of the two populations to determine whether any cases met the
  criteria of a high-dollar overpayment under the requirements of Executive Order
  13520.

    o For the MBR and ROAR extracts, we began analyzing each case with an
      overpayment in the ESTAMT (Estimated Amount) column greater than
      $5,000 beginning at the top of the listing. We analyzed the MBR, ROAR, and
      overpayment letters from the Online Retrieval System to determine whether the
      case met the criteria for a high-dollar overpayment. We analyzed 158 cases
      over the 4 quarters.
    o For the SSR extract, the 45 unique SSN accounts were sorted by the
      OPSQBEG1 (Overpayment Sequence Beginning Date) and OPSQEND1
      (Overpayment Sequence Ending Date) to determine whether the overpayments
      in the population fell into the timeframe of the quarter being analyzed. There
      were six remaining cases in the population once we conducted this analysis.
      We then analyzed the OPSQAMT (Overpayment Sequence Amount) for all
      amounts greater than $5,000 to further reduce the number of beneficiaries in the
      population. There were no unique SSN accounts in this population. Since there
      were no amounts greater than $5,000, we analyzed the SSR on the six cases
      from our original analysis of the Overpayment Sequence Beginning and
      Overpayment Sequence Ending Dates to determine whether the cases met the
      criteria for a high-dollar overpayment.
• Analyzed the narrative of the Accountable Official’s Quarterly High-Dollar
  Overpayment reports to ensure compliance with all requirements of the Executive
  Order.

We determined the computerized data used during our review were sufficiently reliable
given our objective, and the intended use of the data should not lead to incorrect or
unintentional conclusions.

We performed our review from August through November 2011 in Baltimore, Maryland.
We conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)   B-2
                                                                                                                      Appendix C

Defining Erroneous Payments 1
The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
reasons for the payments, and their classification. There are two classifications.
•      Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered erroneous.
•      Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
       changes in administrative actions.
     Types of Payments           Program    Current Status              Reason for Overpayment/Underpayment                Classification
    Payments following a         DI 2 and   Not currently        When SSA is required by law to make payments during       Unavoidable
    cessation of eligibility     SSI 3      reflected as an      the appeals process, these payments are not erroneous.
    due to a continuing                     error
    disability review
    Payments made under          SSI        Reported as an       When due process requires that SSI payments continue,     Unavoidable
    the Goldberg-Kelly                      unavoidable          although the Agency has determined that a payment
    due-process Supreme                     erroneous            reduction or termination is in order, such payments are
    Court decision                          payment in the       not erroneous.
                                            APP 4
    Payments made                SSI        Reported as an       The law requires that SSI payments be made on the first   Unavoidable
    incorrectly because of                  unavoidable          of the month based on projected income for that
    program design                          erroneous            particular month. Changes in the recipient’s status can
                                            payment in the       occur during the month, which causes the recipient’s
                                            APP                  eligibility to change. Because SSA cannot prevent the
                                                                 overpayment from being made, this situation should not
                                                                 be reflected in the Agency’s erroneous payment rate.
1
    Table provided by SSA Office of Financial Policy and Operations in July 2010.
2
    Disability Insurance (DI).
3
    Supplemental Security Income (SSI).
4
    Annual Performance Plan (APP).


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)                                                C-1
     Types of Payments        Program      Current Status            Reason for Overpayment/Underpayment                     Classification
    Payments issued after    OASI 5, DI,   Not currently     Dollars released after death (either electronically or in the   Unavoidable
    death                    and SSI       reflected as an   form of a paper check) that are reclaimed by the                except for
                                           error 6           Department of the Treasury or returned unendorsed,              fraud or
                                                             should not be reflected in the Agency's erroneous               misuse
                                                             payment rate. Conversely, payments made after death
                                                             that are improperly cashed or withdrawn, and are subject
                                                             to overpayment recovery, should be reported.
    Non-receipt of           OASI, DI,     Not currently     Duplicate payments issued in accordance with the                Unavoidable
    payment                  and SSI       reflected as an   Robinson-Reyf Court decision are unavoidable and                except for
                                           error             should not be reflected in the Agency's reports on              fraud or
                                                             erroneous payments. The only exception is duplicates            misuse
                                                             incorrectly sent to abusers.
    Payments based on        DI and        Not currently     Payments are not erroneous if they are the result of a          Should not be
    medical eligibility      SSI           reflected as an   medical improvement review standard or a situation              included in the
                                           error             where the beneficiary would have been ineligible had the        erroneous
                                                             law permitted retroactive ineligibility.                        payment
                                                                                                                             estimate
    Payments made for        DI and        Not currently     When program design requires that the Agency make               Unavoidable
    OASI and DI              OASI          reflected as an   payments based on estimated earnings, these payments
    beneficiaries based on                 error             should not be considered erroneous.
    earnings estimates
    Undetected error         OASI, DI,     Not currently     The Agency should not reflect undetected error in its           Should not be
                             and SSI       reported as an    erroneous payment rate unless it has evidence that a            included in the
                                           error             specific type of erroneous payment was made.                    erroneous
                                                                                                                             payment
                                                                                                                             estimate
    Duplicate payments to    Adminis-      Not currently     Systems do not capture when the overpayment occurs;             Avoidable
    attorneys, vendors,      trative       reported as an    however, this type of error does not meet the reporting
    and employees            Expense       error             threshold.



5
    Old-Age and Survivors Insurance (OASI).
6
 Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review
protocol.


SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)                                                     C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Judith Kammer, Acting Audit Manager, Financial Audit Division

Acknowledgments
In addition to those named above:

   Kelly Stankus, Senior Auditor

   Lori Lee, Auditor

   Charles Zaepfel, Information Technology Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-11-01140.




SSA’s Reporting of High-Dollar Overpayments Under EO 13520 in FY 2011 (A-15-11-01140)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
